                           Office of the Inspector General
                   Corporation for National and Community Service




                           Pre-Audit Survey Report of the
                             Washington Commission
                        on National and Community Service


                          OIG Audit Report Number 00-10
                               November 18,1999




                                        Prepared by:
                                  Urbach Kahn & Werlin, PC
                                  1030 Fifteenth Street, N.W.
                                   Washington, D.C. 20005

                              Under CNS OIG MOU # 98-046-5003
                                 With the Department of Labor
                                    Contract # J-9-G-8-0024
                                    Task Order B9G9X102


This report was issued to Corporation management on May 10, 2000. Under the laws
and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
November 6, 2000, and complete its corrective actions by May 10, 2001. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                Office of Inspector General                                CORPORATION
                      Corporation for National and Community Service                       FOR NATIONAL

                               Pre-Audit Survey of the
                Washington Commission on National and Community Service
                            OIG Audit Report Number 00-10

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements ofthe Act, the Corporation awards
approximately two-thirds of its AmeriCorps StateINational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of ArneriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

 We engaged Urbach Kahn & Werlin, PC, to perform the pre-audit survey of the Washington
 Commission on National and Community Service. UKW concludes that the Commission appears
 to have an adequate pre-award selection process and adequate controls to provide reasonable
 assurance that training and technical assistance is made available to subgrantees. However, UKW
 reports that the Commission does not have an adequateprocess inplace for theJisca1administration
 ofgrants. UKW also concludes that, although the Commission has established controls to evaluate
 and monitor subgrantees, the system needs to be improved. The report includes recommendations
for improvements by the Commission, oversight by the Corporationfor National Service, and afull-
 scope financial audit of the Commissionfor 1995 through the current program year.

                                                                                      Inspector General
                                                                                      1201 New York Avenue, NW
                                                                                      Washington, IIC 20Y25
We have reviewed the report and work papers supporting its conclusions, and we agree with the
findings and recommendations presented. Responses to the report by the Washington Commission
and the Corporation for National Service are included as appendices C and D, respectively. In its
response, the Washington Commission disagrees with a number of the report's findings and
recommendations. The Corporation's response indicates that it will require semiannual reports on
the Commission's corrective actions. UKW's evaluation of the Washington Commission response
is included as appendix E.
                                     Office of the Inspector General
                             Corporation for National and Community Sewice

                                            Pre-Audit Survey Report of the
                                             Washington Commission on
                                           National and Community Service


                                                       Table of Contents


Pre-Audit Survey Report

  Results in Brief ...........................................................................................................................    1

  Background .................................................................................................................................    2

  Overview of the Washington Commission ................................................................................ 3

  Objectives, Scope and Methodology .......................................................................................... 4

  Findings and Recommendations ................................................................................................-5


Appendices

  Appendix A - Washington Commission Funding - 1995 through 1999 .................................11

  Appendix B - Detailed Engagement Objectives and Methodology                                            ......................................... 16

  Appendix C - Washington Commission Response ...................................................................19

  Appendix D - Corporation Response ........................................................................................27

  Appendix E - UKW's Evaluation of the Washington Commission's Response ....................... 28
UK Urbach Kahn &Werlin PC
&w CERTIFIED PUBLlC ACCOUNTANTS
        Inspector General
        Corporation for National and Community Service

        At your request, Urbach Kahn and Werlin PC performed a pre-audit survey of the
        Washington Commission on National and Community Service. The primary purpose of this
        survey was to provide a preliminary assessment of

               the adequacy of the pre-award selection process;

               the fiscal procedures at the Commission;

               the effectiveness of monitoring Washington State subgrantees, including AmeriCorps
               Member activities and service hours; and

               the controls over the provision of technical assistance.

        We were also asked to report on the recommended scope of additional audit procedures to be
        performed at the Washington Commission.

        RESULTS IN BRIEF

        Based on the results of the limited procedures performed, we have made the following
        preliminary assessments regarding the Commission's systems for administering grants
        received from the Corporation.

           The Commission appears to have an adequate pre-award selection process to select
           national service subgrantees and related systems and controls appear to be functioning as
           designed.

           The Commission does not have an adequate process in place for the fiscal administration
           of grants. The Commission did not maintain all required Financial Status Reports and
           was unable to provide all of the Financial Status Reports we requested for testing. We
           also noted that the Commission does not compare Financial Status Reports to subgrantee
           accounting systems during site visits.

           The Commission has established controls to evaluate and monitor subgrantees. However,
           the evaluating and monitoring system needs to be improved to document site visit
           procedures and the review of subgrantee Circular A-133 and other audit reports.
   The Commission appears to have adequate controls in place to provide reasonable
   assurance that training and technical assistance is made available and provided to
   subgrantees.


Based on our preliminary assessments, we recommend that the OIG perform a full-scope
financial audit of the funds awarded to the Washington Commission for 1995 through the
current program year. The financial audit should consider coverage provided by the State's
Single Audit and similar audits of subgrantees. Procedures should also include verification of
reported Member service hours and matching amounts by subgrantees.

In addition, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein
and that the Corporation consider these conditions in its oversight and monitoring of the
Washington Commission.

BACKGROUND

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State Commissions, nonprofit entities, and tribes and territories to assist in the
creation of full and part time national and community service programs. Through these
grantees, AmeriCorps Members perform service to meet the educational, human,
environmental, and public safety needs throughout the nation, especially addressing those
needs related to poverty. In return for this service, eligible Members may receive a living
allowance and post-service educational benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps
State/National funds to State Commissions. State Commissions are required to include
between 15 and 25 voting members. Each Commission has a responsibility to develop and
communicate a vision and ethic of service throughout the State.

The State Commissions provide AmeriCorps funding to approved applicants for service
programs within their states and are responsible for monitoring these subgrantees'
compliance with grant requirements. The State Commissions are also responsible for
providing training and technical assistance to Amencorps State and National Direct
programs and to the broader network of service programs throughout the state. The
Commissions are prohibited from directly operating national service programs.
The Corporation's regulations describe standards for financial management systems that must
be maintained by State Commissions. The standards require, in part, that the State
Commissions maintain internal controls that provide for accurate, current, and complete
disclosure of the financial and programmatic results of financially assisted activities, as well
as provide effective control and accountability for all grant and subgrant cash, real and
personal property, and other assets.

OVER VIEW OF THE WASHINGTON COMMISSION

The Washington Commission on National and Community Service is headquartered in
Olympia, Washington. The Commission has been providing national and community service
programs in its current form since 1995. The Commission reported that it received funding
from the Corporation totaling $4,522,006 in 1995; $5,800,222 in 1996; $6,788,275 in 1997;
$8,112,376 in 1998; $1 0,894,724 in 1999. Additional information on the Commission's
funding is presented in Appendix A.

The Commission currently has six full-time staff consisting of an Executive Director, an
Assistant Director, two Program Officers, one Communications Coordinator, and one
Administrative staff person. The Commission's Program Officer monitors both program and
fiscal activities for all ArneriCorps funds.

The Commission subgrants all of the Learn and Serve funds to the Education Service District
No. 112. The Education Service District No. 112 is a link between local, public, and private
schools with state and national resources. District No. 112 allocates funds to other districts
and acts as an oversight, performing site visits and monitoring both program and fiscal
activities to those districts.

As part of the State of Washington, the Commission is included in the state's annual OMB
Circular A-133 audit. The AmeriCorps Program was considered a major program for the year
ended June 30, 1998, and there were no questioned costs or findings identified at the
Commission at this time or reported in other audit reports.

The Commission provided us with the following information regarding subgrantee audits:

                   Total Amount of                                     Number of
                    Corporation                                    Subgrantees Subject
                        Funds               Number of                To A-133 Audit
Program
   -    Year         Sub~ranted            Submantees                Requirements
Determination of the number of subgrantees subject to an OMB Circular A-133 audit
requirement is based on information received from the Commission and the dollar value of
federal awards passed through the Commission during the program year. Other subgrantees
could be subject to an OMB Circular A-133 audit if additional federal funds were received
from other sources during the program year.

OBJECTIVES, SCOPE AND METHODOLOGY

We were engaged by the Office of the Inspector General for the Corporation for National and
Community Service, to provide a preliminary assessment of the systems and procedures in
place at the Commission for administering grants and for monitoring the fiscal activity of
subgrantees.

The primary purpose of this survey was to provide a preliminary assessment of:

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Commission;

       the effectiveness of monitoring of Washington State subgrantees, including
       AmeriCorps Member activities and service hours; and

       the controls over the provision of technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

       reviewing Corporation laws, regulations, grant provisions, the Reference Manual for
       Commission Executive Directors and Members, and other information to gain an
       understanding of legal, statutory and programmatic requirements;

       reviewing OMB Circular A-133 audit reports and current program year grant
       agreements for the Commission;

       obtaining information from Commission management to complete flowcharts
       documenting the hierarchy of Corporation grant funding for program years 1995
       through 1999; and

       performing the procedures detailed in Appendix B, in connection with the
       Commission's internal controls, selection of subgrantees, administration of grant
       funds, evaluation and monitoring of grants, and technical assistance process.
As part of the procedures performed, we documented and tested certain internal controls in
place at the Commission using inquiry, observation, and examination of a sample of source
documents. Finally, we summarized our observations and developed the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on November 18, 1999.

Our procedures were performed in accordance with Government Auditing Standards issued
by the Comptroller General of the United States. We were not engaged to, and did not,
perform an audit of any financial statements, and the procedures described above were not
sufficient to express an opinion on the controls at the Commission or its compliance with
applicable laws, regulations, contracts, and grants. Accordingly, we do not express an
opinion on any such financial statements or on the Commission's controls and compliance.
Had we performed additional procedures, other matters might have come to our attention that
would have been reported to you.

We provided a draft of this report to the Washington Commission and the Corporation for
National and Community Service. The Comrnission7sand the Corporation's responses to our
findings and recommendations are included as Appendix C and Appendix D, respectively.

In its response, the Commission disagrees with a number of the report's findings and
conclusions. In order to address certain of the concerns expressed in the Commission's
response, we have revised the wording of the respective Findings and Recommendations.
UKW's detailed assessment of the response is included as Appendix E.

FINDINGS AND RECOMMENDATIONS

Selection of Subgrantees

According to A Reference Manual for Commission Executive Directors and Members,
section 3.2, "Commissions are expected to develop a fair and impartial process for reviewing
and selecting applicants for potential funding." The Washington Commission has developed
various procedures to meet this responsibility.

Based on the results of our testing, we believe the documentation maintained by the
Commission to support the selection process is adequate, however, we identified the
following area for improvement.

                Some documentation was missing to support grant-making
                                     decisions.

The Commission provided us with the majority of the requested documentation to support
the application award, renewal, and rejections. However, for our sample of six, the
Commission was unable to provide us with evidence related to one applicant. Commission
staff stated that the applicant voluntarily withdrew from the process. However, no evidence
exists to document this withdrawal.

In addition, our testing revealed one instance where the renewal package did not include the
renewal application or grant review score sheets for a Learn and Serve grant. The
Commission stated that because it was a three-year grant, its renewal application to the
Corporation was an administrative procedure to receive funding for an existing subgrantee,
and therefore did not require a complete grant review process.

We recommend that the Commission reinforce current policies and procedures requiring the
maintenance of certain documentation to support the renewal or withdrawal of subgrantee
applicants.

Administering Grant Funds

The Commission needs to enhance its procedures to adequately administer grant funds
received from the Corporation. As part of the grant administration process, "Commissions
must evaluate whether subgrantees comply with legal, reporting, financial management and
grant requirements and ensure follow through on issues of non-compliance" ( A Reference
Manual for Commission Executive Directors and Members, section 4.3). We identified the
following areas for improvement related to the evaluation of subgrantee compliance with
reporting and grant requirements.

              Lack of evidence of Financial Status Reports review, including
                                  matching recalculation

Commission procedures indicate that subgrantee Financial Status Reports are reviewed and
compared with invoices submitted for payments, and matching requirements are recalculated.
However, no evidence exists to document that this review was performed. In addition,
although the fiscal officer compares FSRs with invoices, Commission personnel do not
compare the FSRs to the subgrantees' accounting system.

Although all subgrantees are on a reimbursement only basis, if subgrantee FSRs are not
agreed to the subgrantees' accounting system, then there is an increased risk that subgrantees
are incorrectly reporting amounts on their FSRs.

We recommend the Commission revise its current procedures to document the results of its
review of subgrantee FSRs. In addition, the Commission should implement site visit
monitoring procedures that require the reconciliation of the subgrantees' FSRs to the
subgrantees' accounting system.
                   The Commission did not maintain all required FSRs.

ArneriCorps Provision #17 states "Commissions and Parent Organizations are required to
submit quarterly Financial Status Reports and three Progress Reports to the Corporation.
Commissions and Parent Organizations must submit these reports by the following dates and
include three copies along with the original." It continues to state "ArneriCorps State
programs and most ArneriCorps National sites that receive subgrants must submit at least
four Financial Status Reports to their respective Commission or Parent Organization. In
general, if a site has a Corporation-approved budget then the submission of an FSR for that
sitelsub-Grantee is required. Commissions/Parent Organizations are required to forward
Financial Status Reports from programs and budgeted sites to the Corporation's Grants
Office 30 days after the close of each calendar quarter. Annual Financial Reports shall be
submitted within 90 days of completion and will compare actual expenditures to budgeted
amounts using the line item categories in the grant budget form."

We identified several deficiencies during our testing of the Washington Commission's
administration of grants. Specifically, eleven Financial Status Reports submitted by
subgrantees, as well as FSRs submitted to the Corporation, were missing. In addition, we
were unable to determine the accuracy of some FSRs submitted to the Washington
Commission by subgrantees, as well as the accuracy of some FSRs submitted by the
Commission to the Corporation because the Excel spreadsheets supporting the subgrantee
compiled FSR were either missing or did not agree to the FSR submitted by the Commission
to the Corporation.

While the new Web-Based Reporting System should alleviate the documentation and
accuracy issues, we recommend that the Commission reemphasize the requirement that all
Financial Status Reports submitted by subgrantees, as well as Financial Status Reports
submitted by the Commission to the Corporation, be maintained and available for review. In
addition, the Commission should ensure that data collection is accurate and timely.

                Inability to determine the timeliness of the receipt of FSRs

The Commission does not routinely date-stamp FSR reports from subgrantees as they are
received. Thus, the Commission can not routinely verify if these documents are submitted
timely in compliance with the grant agreement. As a result, subgrantee FSRs may be
submitted untimely; however, the Commission has no basis to verify the FSRs' receipt date.

On October 1, 1999, the Commission began using the Web Based Reporting System which
electronically records the date subgrantees submit their FSRs to the Commission. As a result,
no recommendation is required at this time related to recording the date of the receipt of the
FSRs.
Evaluating and Monitoring Grants

As discussed above, the Commission is responsible for evaluating whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensuring
corrective action when noncompliance is found.

The Commission's Program Officer monitors both program and fiscal activities for all
AmeriCorps funds. The Commission also contracted a certified public accountant during
1999, to review ArneriCorps subgrantee audit reports, review and complete the Fiscal
Monitoring Tool Program, and review three month's billing statements and supporting
documentation for propriety.

As discussed in the Overview, the Commission subgrants all of the Learn and Serve funds to
the Education Service District No. 112. District No. 112 allocates funds to other districts and
acts as an oversight, performs site visits and monitors both program and fiscal activities to
those districts. Since Learn and Serve funds are less than ten percent of the total awards
received, the Commission monitors District No. 112 through oral discussion to ensure the
adequacy of their monitoring procedures. As a result of our pre-audit survey discussions
involving the maintenance of documentation, the Commission has implemented a procedure
to maintain documentation to support these oral discussions.

We identified the following areas for improvement related to the evaluation and monitoring
of subgrantees.

             The evaluating and monitoring system for subgrantees needs to be
                              improved at the Commission.

According to OMB Circular No. A-133, Audit of States, Local Governments, and Non-Profit
Organizations, as amended, Subpart D tj 400 (d)(3) pass through entities are required to
"Monitor the activities of subrecipients as necessary to ensure that Federal awards are used
for authorized purposes in compliance with laws, regulations, and the provisions of contracts
or grant agreements and that performance goals are achieved." In addition, tj 400 (d)(4)
requires that pass through entitie's "ensure that subrecipients expending $300,000 or more in
Federal awards during the subrecipient's fiscal year have met the audit requirements of this
part for that fiscal year."

The Commission attempts to visit each subgrantee at least twice a year. When site visits are
performed, the Commission uses a monitoring tool created by recommendations made by a
former federal auditor and staff members at the Washington State Office of Financial
Management.

During our review of monitoring folders for subgrantees, we determined that certain
information was excluded from the site visit documentation. Specifically, information
relating to the names of the Members reviewed, identification of Members where exceptions
were identified, and the procedures followed to select the Members reviewed were not
included. In addition, comments included on the checklists were general in nature. Therefore,
we were unable to reperform procedures performed by Washington Commission personnel.

We recommend that the Commission revise written policies and procedures to require
specific information be included in the documentation for site visits (for example, sample
sizes, exceptions, recommendations, and follow up). This will allow the Corporation to
assess the Commission's oversight of subgrantees when it performs its planned Commission
administrative reviews.

In addition, we recommend that the Corporation for National and Community Service revise
its guidance to Commissions to specify minimum procedures to be performed, as well as
minimum documentation requirements.

           Lack of documentation of review of OMB Circular A-133 Reports or
                         other audit reports from subgrantees

As discussed in the previous finding, OMB Circular No. A-133, Audit of States, Local
Governments, and Non-Profit Organizations, as amended, Subpart D 5 400 (d)(3) requires
that pass through entities " Monitor the activities of subrecipients as necessary to ensure that
Federal awards are used for authorized purposes in compliance with laws, regulations, and
the provisions of contracts or grant agreements and that performance goals are achieved." In
addition, 5 400(d)(4) requires that pass through entities "ensure that subrecipients expending
$300,000 or more in Federal awards during the subrecipient's fiscal year have met the audit
requirements of this part for that fiscal year."

However, prior to 1999, the Commission did not document its review of subgrantee OMB
Circular A-133 audits or other audit reports as part of the monitoring process. Therefore, we
were unable to determine if the Commission routinely reviews these reports to determine if
auditors have identified control weaknesses or instances of noncompliance related to the
ArneriCorps program. We reviewed seventeen audit reports for six subgrantees and did not
identify any findings. However, in its failure to review and consider audit results, the
Commission has ignored information helpful in carrying out its oversight and monitoring
responsibilities.

We recommend that the Commission formalize its policies and procedures for the review of
A-133 reports, including procedures to determine which subgrantees fall under the audit
requirements and follow up to determine that audits were performed, and findings, if any,
resolved.
Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its
subgrantees. Procedures are in place at the Commission to (1) identify training needs of
subgrantees through periodic staff meetings with the program directors and a needs
assessment survey; (2) notify subgrantees of training programs; and (3) provide needed
training to subgrantees. We identified no significant areas for improvement within this
process.



This report is intended solely for information and use of the Office of the Inspector General,
management of the Corporation for National and Community Service, the Washington
Commission on National and Community Service, and the United States Congress and is not
intended to be and should not be used by anyone other than these specified parties.




Washington, DC
November 18,1999
APPENDIX A          - WASHINGTON COMMISSION FUNDING




                                                    CORPORATION FOR NATIONAL SERVICE
                                               FUNDING TO THE WASHINGTON STATE COMMISSION
                                                                   1995

                    I


              FORMULA
                                         f
                                         AMERICORPS
                                          COMPETITIVE                FUNDS
                                                                                        1APDAT

                                                                                         FUNDS.
                                                                                                         ADMINISTRATION
                                                                                                            FUNDS "
               FUNDS                        FUNDS-                  $200,000             $40.000            $240,089
              $1,041.917                   $3,000,000
                                                                                           NO
               MATCH-                       MATCH-                   MATCH               MATCH               MATCH-
               $729,506                    $4,161,189                $29,145            REQUIRED            $185,005




                                               TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                $4,522,006




                                     I                 FUNDS AWARDED TO SUBGRANTEES
                                                                 $4,241,917
                                                                                                     I
                                         L
                                         AMERICORPS               AMERICORPS
                                          FORMULA                 COMPETITIVE            $200,000
                                          $1,041,917               $3,000,000

                                            MATCH                    MATCH.               MATCH
                                           $729,506                 $4,161,189            $29,145

                                          TOTAL # OF               TOTAL # OF
                                            SUBS-                    SUBS
                                              4                        2                     1

                                          TOTAL # OF               TOTAL # OF           TOTAL # OF
                                            SITES                    SITES:               SITES,
                                              41                       26                   24




   Total Carryovers for 1995 (Not lncluded In the current year fund~ngamounts above):

     Adrnlnistrat~on $      53,659

   " D~sabllltyfunds included in grant award
APPENDIX A - WASHINGTON COMMISSION FUNDING




                                                            CORPORATION FOR NATIONAL SERVICE
                                                       FUNDING TO THE WASHINGTON STATE COMMISSION
                                                                           1996

  I

                   1
             AMERICORPS
                                            1
                                          AMERICORPS
                                                                             1
                                                                            L8S
                                                                                                 1
                                                                                                 P AT
                                                                                                                            1
                                                                                                                     ADMINISTRATION
                                                                                                                        FUNDS:"
              FORMULA                     COMPETITIVE                     FUNDS:                FUNDS.
               FUNDS.                                                     $172,000              $60,000                  $189,205
                                            FUNDS.
              $1,461,308                   $3,917,709
                                                                                                  NO
                MATCH-                                                    MATCH.                MATCH                    MATCH.
                                            MATCH-
                $713,295                                                                       REQUIRED                  $185,005
                                           $4,904,830                     $76,648




                                            1                                 1                   1
                                                         TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                          $5,800,222                             I




                                                               FUNDS AWARDED TO SUBGRANTEES




                                                                              AMERICORPS
                                                FORMULA                       COMPETITIVE
                                                $1,461,308                     $3 917 709

                                                    MATCH                        MATCH                 MATCH
                                                    $713,295                    $4,904,830             $76,648

                                                TOTAL # OF                     TOTAL # OF         TOTAL # OF
                                                  SUBS:                          SUBS
                                                    5                              3

                                                TOTAL # OF                     TOTAL # OF         TOTAL # OF
                                                  SITES:                         SITES              SITES.
                                                    67                             39




      Total Carryovers for 1996 (Not Included in the current year funding amounts above)'

          Admlnlstratlon   $   101,085
          PDAT                   24.683


      "
          Dlsabllty funds Included in grant award
APPENDIX A - WASHINGTON COMMISSION FUNDING




   A
   AMERICORPS

                                                /1
                                                  CORPORATION FOR NATIONAL SERVICE
                                             FUNDING TO THE WASHINGTON STATE COMMISSION
                                                                 1997




                                                                        1I
                                                                                                                 .
                                                                                                                 GOVERNOR'S




                                                          ;
        FORMULA                  COMPETITIVE              FUNDS                   FUNDS.             FUNDS "      INITIATIVE
         FUNDS                     FUNDS                  $106'889                $85,677                          $150,000
        $1,537,152

          MATCH
         $763,569
                            1     $4,701,437

                                   HM
                                    ;A
                                  $4,493,775
                                                11        $133,276
                                                                        11          NO
                                                                                  MATH
                                                                                     ;
                                                                                 REQUIRED
                                                                                            11    H ; AM
                                                                                                      $133,218
                                                                                                                    MATCH:
                                                                                                                   $107,355




                                             TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                              $6,788,275




                                                    FUNDS AWARDED TO SUBGRANTEES
                                                              $6,495,478




                                                    b                                        A
                                AMERICORPS          AMERICORPS                               GOVERNOR'S
                                 FORMULA             COMPETITIVE                              INITIATIVE
                                 $1,537.152           $4,701,437                               $150,000

                                  MATCH                 MATCH                    MATCH:            MATCH.
                                 $763,569              $4,493,775               $133,276          $101,355

                                TOTAL # OF            TOTAL # OF              TOTAL # OF         TOTAL # OF
                                                        SUBS                    SUBS:              SUBS:
                                                            5                     1                  1


                                TOTAL # OF            TOTAL # OF              TOTAL # OF         TOTAL # OF
                                  SITES                 SITES                   SITES:             SITES:
                                                          65                      24




   Total Carryovers for 1997 (Not mcluded In the current year fund~ngamounts above).

    Adrn~n~strat~on $       60,040
    PDAT                    78,466
    ArneriCorps            245,534

   "   D~sab~lity
              funds ~ncludedIn grant award
APPENDIX A           - WASHINGTON COMMISSION FUNDING




                                                  CORPORATION FOR NATIONAL SERVICE
                                             FUNDING TO THE WASHINGTON STATE COMMISSION
                                                                 1998




                              AMERICORPS
                                                     .t
                                                           L&S
                                                                              f
                                                                              PDAT
                              COMPETITIVE                 FUNDS                   FUNDS
                                                         $130,000                $142,164
        $1,624,482             $5,669,664
                                                                                   NO
         MATCH                   MATCH                                           MATCH
                                                                                REQUIRED
                                                                                                MATCH
                                                                                               $244.412    1   (   MATCH
                                                                                                                   $93,583




                                              TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                               $8,112,376




                                                      FUNDS AWARDED TO SUBGRANTEES
                                                                $7,624,119




                                  FORMULA
                                  $1,624,482
                                                       -4
                                                        AMERICORPS
                                                        COMPETITIVE
                                                         $5,669,664
                                                                                  $130,000
                                                                                                MISC.
                                                                                               FUNDS ^
                                                                                               $199,973

                                   MATCH                   MATCH                   MATCH       MATCH
                                  $1,100,879              $4,564,715              $130,000     $93,583

                                 TOTAL # OF              TOTAL # OF              TOTAL # OF   TOTAL # OF
                                   SUBS.                                           SUBS:        SUBS:


                                                         TOTAL # OF              TOTAL # OF   TOTAL # OF
                                                           SITES-                  SITES-       SITES.




   Total Carryovers for 1998 (Not included In the current year funding amounts above)

   Administration    $     51,597
   PDAT                    42,000
   ArneriCorps          1,549,131
   Governofs ln~t~at~ve    15,950
   Disab~lity              94,478

       Mlsc funds included Governots ln~tiative- $145,637and ED Award Only    - $54,336
   "   D~sabilityfunds lncluded In grant award
APPENDIX A                    -   WASHINGTON COMMISSION FUNDING




                                                              CORPORATION FOR NATIONAL SERVICE
                                                         FUNDING TO THE WASHINGTON STATE COMMISSION
                                                                             1999

  L



                I
  4-      AMERICORPS
           FORMULA
            FUNDS
                                          v
                                  AMERICORPS
                                  COMPETITIVE
                                    FUNDS
                                                                  v
                                                                   L&S
                                                                 FUNDS.
                                                                 $130,000
                                                                                              'I
                                                                                             PDAT
                                                                                            FUNDS
                                                                                            $148,340
                                                                                                               ADMINISTRATION
                                                                                                                  FUNDS."
                                                                                                                  $386,471
                                                                                                                                                  v
                                                                                                                                          MISCELLANEOUS
                                                                                                                                              FUNDS '
                                                                                                                                             $2,741,836
           $1,821.820              $5,666,257
                                                                                              NO
            MATCH                    MATCH                       MATCH.                     MATCH                   MATCH-                     MATCH:
           $1,210,841               $4,371,665                   $130,000                  REQUIRED                 $267,745                   $807.810
      I




                                                                                              w
                                                      TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION-




                                                                FUNDS AWARDED TO SUBGRANTEES
                                                                         $10,294,913




                                    r- AMERICORPS
                                        FORMULA.
                                        $1,821,820

                                          MATCH
                                         $1,210,841
                                                                AMERICORPS
                                                                COMPETITIVE
                                                                  5,666,257

                                                                    MATCH
                                                                   $4,371,665
                                                                                            MATCH
                                                                                            $130,000
                                                                                                             MISCELLANEOUS
                                                                                                                 FUNDS '
                                                                                                                $2,676,836

                                                                                                                 MATCH
                                                                                                                 $807,810

                                        TOTAL # OF                TOTAL # OF               TOTAL # OF           TOTAL # OF
                                          SUBS.
                                            6

                                        TOTAL # OF                TOTAL # O F                                   TOTAL # OF
                                          SITES-                    SITES.                                        SITES.
                                            103




      Total Carryovers for 1999 (Not included in the current year funding amounts above)

      Adrnlnlstratlon     $
      ArnerlCorps                   493,264
      PDAT                           18 000
      Dlsabllrty                     94,478

          Miscellaneous funds consist of Amerlca Reads   - $2,615,000, ED Award Only - $61,836, and the AmerlCorps Promise Fellowship - $65,000 whlch was not
APPENDIX B     - DETAILED ENGA GEMENT OBJECTIVES AND METHODOLOGY

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (I) permit the
preparation of reliable financial statements and Federal reports; (2) maintain accountability
over assets; and (3) demonstrate compliance with laws, regulations, and other compliance
requirements.

In order to achieve the above objectives, we interviewed key Commission personnel to assess
the Commission's internal controls surrounding the following to ensure compliance with Part
6 of A-133, Internal Control of the Compliance Supplement to OMB Circular A-133, Audits
of States, Local Governments, and Non-Profit Organizations: overall control environment;
activities allowed or unallowed and allowable costs; cash management; eligibility; equipment
and real property management; matching; period of availability of Corporation funds;
procurement and suspension, debarment; program income; and reporting by the Commission
to the Corporation.

Selection of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to select national service subgrantees to be included in any application to the
       Corporation;

       make a preliminary assessment as to whether the Commission evaluated the adequacy
       of potential subgrantee financial systems and controls in place to administer a Federal
       grant program prior to making the award to the subgrantees; and

       make a preliminary assessment as to whether the Commission's involvement in the
       application process involved any actual or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
ensure that conflict of interest forms for each subgrantee applicant tested were signed by all
peer review members annually and maintained by the Commission.
APPENDIX B     - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY

Administering the Grant Funds

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to oversee and monitor the performance and progress of funded subgrantees;

       make a preliminary assessment as to whether the Commission's organizational
       structure and staffing level and skill mix is conducive to effective grant
       administration and whether the commission has a properly constituted membership;

       make a preliminary assessment as to whether the Commission provided adequate
       guidance to subgrantees related to maintenance of financial systems, records,
       supporting documentation, and reporting of subgrantee activity;

       conduct a preliminary survey of financial systems and documentation maintained by
       the Commission to support oversight of subgrantees and required reporting to the
       Corporation (including Financial Status Reports, enrollment and exit forms); and

       make a preliminary assessment as to what procedures the Commission has in place to
       verify the accuracy and timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We
also determined whether the Commission has implemented the Web Based Reporting
System.

Evaluating and Monitoring Grants

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission,
       in conjunction with the Corporation, to implement a comprehensive, non-duplicative
       evaluation and monitoring process for their subgrantees;

       make a preliminary assessment as to whether the Commission has a subgrantee site
       visit program in place and assess the effectiveness of its design in achieving
       monitoring objectives;

       conduct a preliminary survey of the Commission's procedures used to assess
       subgrantee compliance with Corporation regulations (e.g., those governing eligibility
       of Members, service hour reporting, prohibited activities, payment of living
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


       allowances to Members and allowability of costs incurred and claimed under the
       grants by subgrantees (including reported match));

       conduct a preliminary survey of the Commission's procedures for obtaining,
       reviewing and following up on findings included in the subgrantee single audit
       reports, where applicable;

       determine whether program goals are established and results are reported and
       compared to these goals; and

       conduct a preliminary survey of the procedures in place to evaluate whether
       subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We
reviewed the documentation to preliminarily assess the adequacy of the procedures
performed by the Commission to assess financial and programmatic compliance and related
controls at the sites. We also determined whether the Commission received and reviewed A-
133 audit reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commissions
       to provide technical assistance to subgrantees and other entities in planning programs,
       applying for funds, and implementing and operating programs;

       make a preliminary assessment as to whether a process is in place to identify training
       and technical assistance needs; and

       make a preliminary assessment as to whether training and technical assistance is
       provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year
to ensure they properly related to training activities which were made available to all
subgrantees.
APPENDIX C- WASHINGTON COMM/SSIONRESPONSE




                                                      STATE OF WASHINGTON

      WASHINGTON COMMISSION FOR NATIONAL AND COMMUNITY SERVICE
      515 1Srh Ave. SF   .
                         Posl Office Box 431 73   .
                                                  Olympia, Warhington 98504-31 13   -   (360) 902-0656   -   FAX (360) 902-0414




        Luke Jordan, Inspector General
        Corporation for National Service
        1201 New York Avenue, NW
        Washington, D.C. 20525

        Dear Ms. Jordan:

        Re. Drafl Report of the Pre-Audit Survey of the Washinglon Commission forNaiional and
        Community Service

        We have carefully reviewed the above subject report and disagree with two unfounded negative
        findings outlined in the Resulfs in Brief in the Pre-Audit Survey Report ofthe Washingfon
        Commission for Nafional and Community Service Other concerns will also be identified later
        in this response It was o w understanding that this was a pre-audit survey, but the results that are
        displayed appear to be paJt of an actual audit. However, we are very interested in improving
        operations and have already implemented two minor suggestions contained in this drafl pre-audit
        survey. In addition, we have already implemented the minor suggestions made by Urbach Kahn
        and Werlin (referred to as UKW) as part of then site visit in November, 1999.

        Brief Response to "Results in Brief'lrom the Pre-Audit Survey Repori o f t h e Washingfon
        Commission on National and Community Service (Page I ) :
           The Commission was surprised to find in this pre-audit draft report that we had an inadequate
           process for the fiscal administration of grants and Ulat we had inadequate controls in place to
           evaluate and monitor subgrantees. In conversations at the exit conference conducted o n
           November 18, 1999 and in subsequent written non-material findings provided at the exit
           conference by the Senior Partner of UKW, these items were not addressed.

            The Senior Partner has stated that the preliminary assessments relating to the fiscal
            administration and evaluation and monitoring of grants, based on his personal examination of
            the Commission, were not his findings (conference call of March 14,2000- 1lam PDT).
            Staff of UKW, whom we have consulted with since this report was issued, have indicated
            that rhe Washington Commission was one of the better operated Commissions they have
            reviewed.
APPENDIX C- WASHINGJON COMMISSION RESPONSE




      Luise Jordan, Inspector General
      March 29,2000



         Moreover, statements are made in the 01G draft audit report that were not charactmized
         during the assessment by semor audit staff conducting the pre-audit survey back in
         November 1999.

      We have submitted your drafl report for review by the Washington State Auditor and Oflice of
      Financial Management, both of whose staff have also reviewed our response.

      The specijir responses to items made in your drafl report ore as follows:

      Page 3 "The Commission does not bave an adequate process in place for tbe fiscal
             Administration of grants."

             7his statement comes as a surprise since it was not formally addressed d u ~ i n gthe on-site
             review process, or at the exit conference on November 18, 1999 when the Results and
             Procedures Performed UpTo-Date and the Audit Survey - Preliminary Findings were
             i~~itially
                      onered, and is inserred on pages 8-16 of this letter.

             A recent state audit of the Commission did not identij. any fiscal management
             inadequacy in the administration of grants. The Commission is located within the
             Washington State Office of Financial Management that oversees the fiscal management
             of state agencies, and utilizes its systems for managing the Amencorps programs in the
             state.

      Page I "The Commission does not bave adequale controls in place to evaluate and monitor
             subgranlees."

            The Commission recognizes the importance of the monitoring and evaluation functions,
            and continues to enhance these important responsibilities. The monitoring system has
            been significantly improved over the years and is the subject of ongoing continuous
            improvement, and as such, currently meets the overall program requirements. Given this
            perspective, the above siatement was unexpected in light of not being mentioned during
            the on-site review, the exit conference on November 18,1999, or in the Audit Survey -
            heliminary Findings, on pages 8 through 16 of this letter.

            UKW's staff was allowed to review monitoring and evaluation reporb completed afler
            site visits, as well as quarterly or semi-annual progress and fmancial status reports. A
            Program Monitoring tool was in fact developed with collaboration from a former federal
            auditor with the Office of Financial Management during the first year of the Commission.
            It has been updated overtbe years, but has remained relatively the same. This statement
            makes it appear that we have ' h o system or controls"in place to meet the monitoring
                                    4
            requirements, when in fact we do have such a sysl&. The Urbach team did recommend
APPENDIX C- WASHINGTON COMMISSION RESPONSE




      Luke Jordan, Inspector General
      March 29,2000



                                                                                                  *
             that we identify the names of those members' files we review. In response to this
             recommendation, a form was developed to record member identity numerically in order
             to protect !he privacy of the member and lo comply with privacy statutes and regulations.
             This iorm was included as Attachment 2 to the Commission's response to the Audit
             Survey - Preliminary Findings sent December 16, 1999, which is inseried in this
             response letter on pages 17 lhrough 26.

      Page 2 "...we recommend that the 0 1 G perform a full-scope financial audit7' (ld
             paragraph)

             The Commission is open to audits of our records. However, it needs to be stated lhat the
             Commission is subject to annual state-mandated audits and has recently been audited as a
             major program under a single audit as defined by OMB Circular A-133.

      Page Sd'..tbe Commission was unable to provide us witb a rejection letter for one
            subgrantee and documentation to support the reuewaYfunding of another
            subgrantee for tbe third year of a Ibree-year grant."

             The Commission had mentioned on several occasions and in our response to the Audit
             Survey - Preliminary Findings (see pages 1 7 through 20 oilhis response), that this
             grantee voluntarily withdrew from the grant competition prior lo being considered for a
             grant. Therefore, it was never considered as a valid applicant for funding.

            Regarding the issue oithe Commission's inability to provide documentation to support
            renewallfunding of another subgrantee for the third year of a three-year grant, this was
            addressed in the Commission's response to the Audit Survey - Preliminary Findings (see
            pages 17 through 20 of this response). The grantee in question (Puget Sound Educational
            Service District - Learn and Serve-CBO grantee) was in the last year of a 3-year grant
            cycle awarded by CNS, and as such, not required to conduct a renewal process. The
            Commission has on file a contract amendment for the Puget Sound ESD with the funding
            amount stated.

      Page 6"Commission personnel do not compare tbe FSR's to the sobgraotees' accounting
            systems o r otber supporting documentation during site visits (2"dParagraph)"

            The subgrantee's accounting systems are offen identif ed in their program applications
            and are initially reviewed prior to start-up. Unlike quarterly (now semi-annual)
            submissions of FSRs, site virir evaluations do not necessarily fall within these same
            particular limelines. Site visits can happen throughout a program year (normalb twice
            per program), and are often prioritized by how new a grant pro-       is, changes in
APPENDIX C- WASHINGTON COMM/SSlON RESPONSE




      Luise Jordan, Inspector General
      March 29,2000



             program staff, or if there are identified concerns from progress reporis, FSRs, or other
             communication with Commission staff. The Commission staff has always reviewed
             fiscal systems, meeting match requirements, and program expense activity during site
             visits with the programs' accounting staff, which js made easier now with WBRS.
             Sometimes these site evaluations are done separately from program evaluations
             Reconciliation i s also conducted on all invoices for payment in the Commission office to
             determine that the required match is documented and those ilems requesting
             reimbursement are allowed in the budget. This process was discussed in detail with staff
             from UKW. Accounting systems were analyzed more in depth fiom a fiscal audit review
             conducted on grantees in the 1998-99 Program Year.

             It is our understanding that Commissions do not have to do site checks or on-site reviews
             lo verify FSRs or other system issues per OMB Circular A- 102 for States and A- 110 for
             nonprofils. The Commission relies on independent A- 133 audits that cover most of our
             AmeriCorps grantees. The Reference Manual for State Commissions, used as a citation
             for requirements, is an informal desk aide published by an independent contractor for the
             Corporation. It was not adopted by reference by CNS regulations or grant provisions
             We utilize the uniform standard OMB provisions for state admi~istrationalong with
             statutory and regulatory AmenCorps directives, lo administer grants.

      Page 6 "Altbougb all subgrantees a r e on a reimbursement only basis, if subgrantee FSRs
             are not agreed to tbe subgrantee's accounting system, tben tbere is an increastd risk
             tbat subgrantees are incorrectly reporting amounts on their FSRs and the
             Commission lacks reasonable assurance tbat subgrantees a r e correctly reporting
             amounts on tbeir FSRs (3'dparagraph)."

            The Commission requires invoicing on a cost reimbursement basis. Comrnission staff.
            reviews and validates all invoices and supporting documents from subgrantees prior to
            being submitted for reimbursement, and this information is utilized to verify the accuracy.
            of all FSRs prior to submission to the Corporation for National Service. Nearly all of the
            Commission's subgrantees utilize a Grantee Expense Fonn (or something very
            comparable) developed in conjunction with the WA State Ofiice of Financial
            Management that shows a -ng          balance of not only expenditures of the CNS finding,
            but also Grantee share of funding in their accounting systems. Subgrantee accounting
            systems differ, but this is oflen due to the fact that some programs are based in large slate
            agencies, and some are in non-profit organizations. The nmning balance of their budget
            is reflected in the quarterly FSRs submitted. Thjs process has now become more uniform
            with the electronic Periodic Expense F o m on WBRS. Please note that WA State goes
            beyond the minimums to exercise oversight on these funds. States are encouraged to
            advance funds to responsible grantees. Because of our invoking and reimbursement
            requirements, we exceed the minimum OMB requirements.
APPENDIX C- WASHINGTON COMMISSION RESPONSE                                             .    .   .   .   .     .




       Luise Jordan, Inspector General
       March 29.2000



       Page 6 "lnability to determine tbe timeliness of tbe receipt of the FSRs "

              All FSRs come in to the Commission before final submission to the Corporation for each
              reporting period. FSRs were submitted on time by the Commission to the CNS by the
              required deadline for each reporting period. The Commission would prefer the
              subgrantee FSRs be submitted to us by the designated deadlines set by the Commission
              for early submittal to CNS, but we also prefer to see FSRs turned in accurately.
              Permission is sometimes granted for extensions. This i s because many ArneriCo~ps
              programs, especially in state agencies, do not utilize the federal fiscal reporting cycle set
              forth by CNS, so expenditure information is difficult to compile in some billing periods.
              This means they modify their billing processes to ensure that information stated in their
              FSRs is accurate. While there might be a reason to bring this item up ~JI the report the
              next paragraph discounts the need for this type of documentation and no recornmendation
              is required.

              As stated in the reporl, WBRS will automatically record date of receipt of FSRs

       Page 7 "several Financial Status Reports submitted by subgrantees, as well as FSRs
              submitted to tbe Corporation, were missing" .... "In addition, we were unable to
              determine the accuracy of some FSRs submitted to tbe Wasbington Commission by
              subgrantees, as well as tbe accuracy of some FSRs submitted by tbe Commissioo to
                                     o n2"* Paragraph)"
              the ~ o r ~ o r a t i ...(

              Commission staff found FSRs for UKW staff and provided additional information as
              required. The statement that several FSRs were missing is incorrect. FSRs for each
              AmeriCorps grantee are not missing. Those FSRs in question (fiom the Audit Survey-
              Preliminary Findings) are attached to this response-asExbbit A. For the Learn and
              Serve-CBO grant at Puget Sound ESD, the FSRs on file for them accurately reflect the
              expenditures of the grant during the grant period. Program staff at the subgrantee
              changed sweral times c b i n g this grant. %ng those hansitions, FSRs were not
              submitted on a timely basis, but the subgrantee followed up FSRs to cover all periods that
              were missed. Monitoring and evaluation of Learn and Serve-CBO grantees has been
              strengthened over the years to address these issues.

              FSRs are filed by Program Year and by quarle~,and according to Commission records,
              are accounted for in our files. The confusion, as stated in the Commission's response to
              the Audit Survey - P r e h i n a r y Findings (see pages 20-25 of this response), is the
              different reporting periods fiom the different grants - either quarterly or semi-annual.
              Otber issues arose and were explained to UKW staff during the interview, for example,
APPEND/X C- WASHINGTON COMM?SSlONRESPONSE




       Luke Jordan, Inspector General
       March 2 9 , 2 0 0 0



              Disability Funds were reported as part of the slate's Administrative Grant at one time.
              Better understanding o v a the years on the reporting timelines of the various grants, has
              alleviated FSRs submitled with data encompassing a larger peTiod of time.

              The Commission believes its existing procedures to fesl the accuracy of FSRs is
              adequate. We review the supporting documentation (invoices and attached statements
              and periodic expense forms) as it relates to reimbursements. This information, in turn, is
              used to verify the accuracy of the data contained in the FSRs. All questions regarding the
              accuracy of some FSRs submitted by the Commission to CNS were responded to in the
              Commission's response to the Audit Survey-Preliminary Findings (see pages 20-25 of
              this response). It has been shown and footnoted why some FSRs were not accurate for
              the particular reporting period stated. Many of the reasons included the following:
              Programs were funded under two (or more) separate state contracts showing different
              streams of funding (CNS, Deiense Conversion Assistance Progam carryover, and State
              funding for example); One program year required reporting of aggregate numbers, Lbe
              other year it didnor on FSRs. As a result, Programs reconciled FSRs later to reflect more
              accurate final expenditures in CNS and Grantee shares. This last point also relates to the
              fact that the Commission likes to see FSRs reconciled accurately, which is sometimes
              after the 3 0 days after the reporting cycle ends. All of these extensions are approved with
              permission from the Grants OfJice at CNS. Like CNS, the Commission wants to see
              accurate data on the final carryover, since that can impact the new grant awards.

       Page 8"Tbe evaluating and monitoring system for subgrantees needs to be improved at tbe
             Commission"

             The Commission strives to improve on the way it evaluates and monitors subgrantees.
             The recommendation made by UKW relating to this issue has been addressed on page 2
             of this letter, which responded to the Audit Survey - Preliminary Findings. The handout,
             inserted on pages 8 and 9 of this letter, was delivered at the exit conference on November
             18, 1999 by UKW and only requested thal we identify by name the members who we
             i n t e ~ e wso a reconstruction of the interviews could be initiated. Om response to thjs
             recommendation, included on pages 18, 19, and 26 of this letter, included a procedure to
             numerically identify the members who we interviewed, while insuring the privacy of the
             individual member. Since the new information contained in this draft report was
             received, the Commission has enhanced its existing monitoring tool by developing
             written procedures that address sample size, exceptions, recommendations, and follow up
             requirements. The Commission is willing to address these issues prior to receiving direct
             guidance from CNS regarding these requirements. This is included as Exhibit B
             (Monitoring Policies and Procedures).
APPENDIX C- WASHfNGTON COMM/SSION RESPONSE




      Luise Jordan, lnspeclor General
      Marcb 29,2000



      Page 8 "Tbe monitoring tool, currently in place a t tbe Wasbinglon Commission, was
             created by Delaware, California, New Jersey, Wasbington and Nortb Carolina
             Commissions. It was created under tbe guidelines ektablisbed by the Corporation,
             as well as guidelines and recommendations received from a CNS contractor."

             This monitoring tool was not formally adopted by the Corporation either in regulation or
             in grant provision. In the Commission's monitoring function, we attempt to define our
             responsibilities that do not contradict to what a formal audit would entail. However, in
             the Commission's monitoring role, it is cognizant of the audit responsibility in defining
             sample size and sampling techniques. With this unde~standing,the Commission will be
             diligent in minimizing potential conflicts between audit responsibilities and monitoring
             responsibil~ties.

             The monitoring tool currently in place at the WA Commission was not created under
             guidelines established by the Corporation, but by recommendations horn a former federal
                           ~ staff member at the WA State Office of Financial Management. We did not
             a I I d ~ t 0and
             work with the other states identified in the report to develop this tool. Our monitoring
             tool has been updated over the years as new information has been brought to our
             attention. The other states listed may use similar monitoring tools, but the process in WA
             is truly original. We have not worked with a (7NS cont~actoron this process at all.

      Page 9 "Lack of documentation ofreview of OMB Circulator A-133 Reports or otber audit
             reporls from subgrautees"

             The Commission technically goes beyond expected slate requirements and collects all
             audits from subgrantees that must meet this requirement. Rather than just receiving a
             letter from grantees documenting any questioned cost findings in an OMB Circular A-
             133 audit, the Commission receives the complete audit and reviews the entire report.

             The Draft Repot of the Pre-Audit Survey of lfie Washington Commission for National
             and Community Service states that "in its failure to review and consider audit results, the
             Commission ignores. .." h the review of seventeen audit reports by Urbach auditors, no
            findings were found. Tbe Commission is very concerned that this type of statement is
            made when no proof was offered that reports were not reviewed. The Commission has
            on file every A-133 audit performed on all subgrantees. Commission staff
            conscientiously renews each audit report and will take appropriate action if exceptions or
            recommendations are found in the audit
APPENDIX C- WASHINGTON COMMISSION RESPONSE




         Luise Jo~dan,in spec to^ General
         March 29,2000




                We were surprised the issue was not raised in the exit conference on November 18, 1999,
                since it appeared as a major issue in this final drafi report. Given the recommendation
                found in this draft report, the Cornmissjon has injtjated a documentation procedure,
                Exhibit C (Review Procedures for A- 133 and other audits), to provide written
                documentation that these reports were reviewed and any required follow up completed.

         Obviously, we have a difference of opinion in how the information in this draft report
         characterizes the operations of the Cornmissjon The Office of the Inspeclor General's Pre-Audit
         Survey Reporl of the Washington Commission for National and Community Service differs
         significantly from the pre-audit survey prelimnary findings of November 18, 1999 issued by
         UKW. We have an excellent record of implementing our programs throughout the state and
         have enabled thousands of Americans to make valuable contributions to serve residents in
         Washington State and throughout the nation

         Sincerely,



         William C. Bad
         Executive Director

         Enclosures (3)
APPENDIX D     - CORPORAT/ON RESPONSE




         MEMORANDUM
                                                                        AmeriCwpsNationalService   CORPORATION

                                                                                                   FOR N A T I O N A L
         TO:            Luke S. Jordan



         FROM:
                        Bruce H. Cline

         DATE:          M a ~ c h10,2000

         SUBJECT:       Response to the Draft Audit Report 00-10, Pre-Audit Survey ojrhe
                        Wo~hinnronCommission on Norional Community Service

         We have reviewed ihe drafi report on your pre-audit s w e y of the Washington
         Commission on National and Community Service Given the nature ofthe report, this
         response serves as our proposed management decision. We note that your preliminary
         assessment recommends a full scope audit at the Commission for program years 1995-96
         through the cunent j?JOgJZimyear. The draft audit reporl includes a ~ecommendationlo
         the Corporation. We are providing the following response to that recommendation. The
         Jnspector General recommended:

                "Additionally, we (the Inspector General) recommend that the Corporation foflow
                upwith the Commission to determine that appropriate corrective actions are put
                into place to address the conditions reported herein, and that the Corporation
                consider these conditions in its oversight and monitoring of the Washington
                Commission."

         Some ofthe conditions cited in the "results in brief" section of the report include
         concerns related to an adequate process for the fiscal administration o f grants and
         adequate conirols to evaluate and monitor subgrantees.

         Given our limited program administration resources, we developed a plan to assess State
         Commission administration functions. Over a three-y- period, we will be reviewing
         each of the state commissions. As part of our review of Washington, w e will determine
     -   whether the Commission has put appropriate corrective actions in place for conditions
         noted in the pre-audit survey that your o f i c e has issued.

                                                                                    -
         In addition to this scheduled review. we will also reuuest &at tbe Washinelon
         Commission provide semi-annual repom on their actions to correct conditions cited in      ,,,-m
         the 01G pre-audit survey.                                                                 -DCIB~L~
                                                                                                   T~~~
APPENDIX E - UKW'S EVALUA TION OF THE WASHINGTON COMMISSION'S
RESPONSE




Inspector General
Corporation for National Service

RE:    Washington Commission Response to the Pre-Audit Survey Report

At your request, we have reviewed the Washington Commission's response to our Pre-Audit
Survey Report. Below please find a summary of the Commission's response, along with our
response.

Bullet #1: The Commission was surprised with conclusions made in the Results In Brief
section since these items were not addressed in conversations at the exit conference and in
subsequent written non-material findings provided at the exit conference.

UKW's response: As documented in our exit conference agenda dated November 18, 1999,
UKW stated that the Commission needed to enhance its documentation supporting
monitoring procedures performed during site visits and the Commission needed to enhance
its controls over the administration process.

Bullet #2: UKW staff has indicated that the Washington Commission was one of the better-
operated Commissions they reviewed.

UKW response: UKW agrees. We have revised the conclusion to delete the word inadequate.

Bullet #3: Statements are made in the OIG draft audit report which were not characterized
during the assessment by senior audit staff conducting the pre-audit survey back in
November 1999.

UKW's response: UKW provided Washington Commission staff a copy of our exception
summary along with our finding write-ups. Commission personnel were made aware of all
findings, except for the lack of FSR review and lack of review of OMB Circular A-133 audit
report findings. In addition, UKW stated in the A-133 finding "...prior to 1999, the
Commission did not document its review of subgrantee OMB Circular A-133 or other audit
reports.. ." UKW also explained to Commission personnel during a telephone conference on
March 14, 2000, that the Commission could add procedures to its monitoring checklist to
document its review of the A-133 reports.

Page 2, 1" comment: UKW's conclusion that the Commission does not have an adequate
process in place for the fiscal administration of grants came as a surprise since a recent state
audit of the Commission did not identify any fiscal management inadequacy in the
administration of grants.
     APPENDIX E - UKW'S EVALUATION OF THE WASHINGTON COMMISSION'S
     RESPONSE


     UKW's response: Our testing identified several instances where subgrantees did not submit
     FSRs timely to the Commission; several instances where the Commission did not submit
     FSRs to the Corporation timely; several instances where FSRs were not maintained in the
     Commission subgrantee files; several instances where FSRs were not maintained for the
     grant year; and several instances where FSRs were not prepared on a semi-annual basis as
     required. All of these issues were discussed with Washington personnel and while they sent
     us a letter dated December 16, 1999, the Commission did not provide UKW with any
     additional information to clear these exceptions.

     2nd page, 2nd comment: As previously discussed, the Commission does not like the
     conclusion made that the Commission does not have adequate controls in place to evaluate
     and monitor subgrantees. They believe that this statement makes it appear that they have "no
     system or controls" in place to meet the monitoring requirements when they do have a
     system.

     UKW's response: As discussed during the exit conference, UKW stated that the Commission
     needed to enhance its documentation of monitoring procedures performed during site visits.
     UKW was unable to determine the validity of the procedures performed or the number of
     Member files tested. We also recommended that they document procedures performed on
     Member service hours. We revised the conclusion to delete the term "inadequate".

     3rdpage, 1" comment: While the Commission states they are open to audits of their records,
     they wanted it to be stated that the Commission is subject to annual state-mandated audits
     and has recently been audited as a major program under a single audit as defined by OMB
     Circular A- 133.

     UKW's response: In addition to our recommendation that the OIG perform a full scope
     financial audit, we also stated "the financial audit should consider coverage provided by the
     State's Single Audit and similar audits of subgrantees. However, the AmeriCorps program
     was only tested as a major program during 1998 and the scope of our work was 1995 through
     1998. In addition, no audit has ever been performed on the other Corporation funded
     programs.

     3rdpage, 2ndcomment: Related to our selection of subgrantee finding that "The Commission
     was unable to provide us with evidence related to one applicant. Commission staff stated that
     the applicant voluntarily withdrew from the process. However, no evidence exists to
     document this withdrawal."

     The Commission continues to state that the grantee voluntarily withdrew from the grant
     competition prior to being considered for a grant. Therefore, it was never considered a valid
     applicant for funding. Since no documentation exists to support this withdrawal, UKW would
     like to leave wording as is. With regard to inadequate documentation related to one applicant,
     they continue to state that this grantee was in the last year of a 3-year grant cycle and as such,
UK                                                 - 70 -
APPENDIX E      -   UKW'S EVALUATION OF THE WASHINGTON COMMISSION'S
RESPONSE


the Commission was not required to conduct a renewal process.

Even though this was a three-year grant, the grantee is required to apply for new funding on
an annual basis. As a result, we believe the Commission should evaluate subgrantees on a
yearly basis to ensure the program is still achieving its goals and remains eligible to receive
funding, and this review should be documented.

3rdpage, 3rdcomment: Relates to the fact that Commission personnel do not compare the
FSRs to the subgrantees' accounting systems or other supporting documentation during site
visits. They state that subgrantees' accounting systems are often identified in their program
applications and are initially reviewed prior to start-up. Until quarterly or semi-annual
submissions of FSRs, site visit evaluations do not necessarily fall within these same
particular timelines. They further state that reconciliation is conducted on all invoices for
payment in the Commission Office to determine that the required match is documented and
those items requesting reimbursement are allowed in the budget.

They continue to state that "it is our understanding that Commissions do not have to do site
checks or on-site reviews to verify FSRs or other system issues per OMB Circular A-102 for
States and A-1 10 for non-profits. The Commission relies on independent A-133 audits that
cover most of our AmeriCorps grantees.

UKW's response: While it may not be explicitly required, certain Commissions have already
implemented procedures to verify FSRs to the subgrantees' accounting systems. We believe
this is a good internal control procedure, which should be implemented by all Commissions.

However, UKW revised the wording of the finding to state:

Commission procedures indicate that subgrantee Financial Status Reports are reviewed and
compared with invoices submitted for payments, and matching requirements are recalculated.
However, no evidence exists to document that this review as performed. In addition, although
the fiscal officer compares FSRs with invoices, Commission personnel do not compare the
FSRs to the subgrantees accounting systems.

Although all subgrantees are on a reimbursement only basis, if subgrantee FSRs are not
agreed to the subgrantees' accounting system, then there is an increased risk that subgrantees
are incorrectly reporting amounts on their FSRs.

We recommend the Commission revise its current procedures to document the results of its
review of subgrantee FSRs. In addition, the Commission should implement site visit
monitoring procedures that require the reconciliation of the subgrantees' FSRs to the
subgrantees' accounting system.
APPENDIX E - UKW'S EVALUA TION OF THE WASHINGTON COMMISSION'S
RESPONSE


4thpage: Relates to our statement that "Although all subgrantees are on a reimbursement
basis." The Commission stated, "The Commission requires invoicing on a cost
reimbursement basis. Commission staff review and validate all invoices and supporting
documents from subgrantees prior to being submitted for reimbursement. This information is
utilized to verify the accuracy of all FSRs prior to submission to the Corporation for National
Service."

UKW's response: The re-wording discussed above resolves this comment.

5thpage, 1" comment: The Commission did not understand the need to report the inability to
determine the timeliness of the receipt of the FSR since no recommendation was made.

UKW's response: UKW included it in the report since we were engaged to review the 1995
through 1998 program years and WBRS was not implemented until October 1999.

5thpage, 2"*comment: The Commission claims they gave us all the FSRs we requested.

UKW's response: During our exit conference, UKW provided Commission personnel with a
copy of our exception summary outlining which FSRs were missing. While the Commission
sent UKW a letter dated December 16, 1999 responding to our summary, they did not
provide additional documentation which would resolve the exceptions.

In response to the missing FSR issue, the Commission included copies of the FSRs'
submitted by the Neutral Zone subgrantee for the first two quarters in 1995. However,
UKW's issue was not that the FSRs were missing, but that the Excel spreadsheet supporting
amounts reported by the Commission to the Corporation was missing.

Page 6: Relates to our evaluating and monitoring finding. As a result of our review, the
Commission implemented new procedures which they included as Exhibit B.

UKW's response: UKW was engaged to review 1995 through 1998. These procedures were
not implemented until 2000.

Page 7, 1" comment: The Commission stated that the monitoring tool currently in place at
the WA Commission was not created under guidelines established by the Corporation, but by
recommendations from a former federal auditor and staff member at the WA office of
Financial Management. We did not work with the other states identified in the report to
develop this tool.

UKW's response: UKW erroneously received this information and included it in the draft
report. UKW revised the wording of the report to state that the monitoring tool was created
by recommendations made by a former federal auditor and staff member at the Washington
State Office of Financial Management.
APPENDIX E     -   UK W'S EVALUA TION OF THE WASHINGTON COMMISSION'S
RESPONSE




Page 7, 2ndcomment: The finding relates to a lack of documentation of review of OMB
Circular A-133 reports and other audit reports from subgrantees. The Commission believes it
"goes beyond expected state requirements and collects all audits from subgrantees that must
meet this requirement. Rather than just receiving a letter from grantees documenting any
questioned cost findings in an OMB Circular A-133 audit the Commission receives the
complete audit and reviews the entire report."

The Commission also stated that "The Commission is very concerned that this type of
statement is made when no proof was offered that reports were not reviewed."

UKW's response: While UKW does not dispute that the Commission obtains the audit
reports, the Commission does not document its review of the reports and what corrective
actions were taken on findings, if identified.
